           Office of Inspector General




April 29, 2004

JAMES A. DAILY
MANAGER, MISSISSIPPI DISTRICT

MICHAEL P. JORDAN
MANAGER, SUNCOAST DISTRICT

SUBJECT: 	Audit Report – Efforts to Prevent Accidents, Injuries, and Illnesses in the
          Mississippi and Suncoast Performance Clusters (Southeast Area)
          (Report Number HM-AR-04-006)

This report presents the results of our self-initiated audit of the Mississippi and Suncoast
Performance Clusters’ (Southeast Area) efforts to prevent accidents, injuries, and
illnesses (Project Number 03YG011LH001). Our overall objective was to determine
whether the performance clusters were reducing the number of accidents, injuries,
and illnesses through prevention methods. This report is the first in a series of
seven reports we will issue on accident prevention initiatives in 6 areas and
12 performance clusters. The seventh report will address issues with nationwide
impact and will provide the results of our best practice review of safety issues.

The Mississippi and Suncoast Performance Clusters had implemented prevention
initiatives that have the potential to become best practices in reducing accidents,
injuries, and illnesses. However, we could not determine whether the prevention
initiatives reduced the number of accidents, injuries, and illnesses, or whether the
initiatives were implemented in a timely manner.

Although both performance clusters were accumulating and analyzing accident, injury,
and illness data for prevention initiatives, the Human Resource Information System and
the Risk Management Reporting System were inconsistent and did not provide an
efficient method of analyzing data for prevention initiatives. Finally, in all six of the
facilities we visited in the Mississippi and Suncoast Performance Clusters, the reporting
processes facilitated accurate reporting of accidents, injuries, and illnesses. However,
several Mississippi facilities can improve their completion of accident report forms.




   1735 N Lynn St
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
We provided management with one recommendation to help the Mississippi
Performance Cluster improve its accident reporting processes. Management agreed to
the recommendation and has initiatives completed or planned addressing the issues in
this report. Management’s comments and our evaluation of these comments are
included in this report.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Chris Nicoloff,
Director, Human Capital, at (214) 775-9114 or me at (703) 248-2300.


/s/ 	Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Operations and Human Capital

Attachment

cc: 	Suzanne F. Medvidovich
     John A. Rapp
     DeWitt O. Harris
     Samuel M. Pulcrano
     William J. Brown
     Robert D. Noonan
     Susan M. Duchek
     Joseph K. Moore
Efforts to Prevent Accidents, Injuries,                                   HM-AR-04-006
 and Illnesses in the Mississippi and Suncoast
 Performance Clusters (Southeast Area)

                                  TABLE OF CONTENTS 

Executive Summary
                                                             i

Part I 


Introduction 
                                                                1


   Background 
                                                               1

   Objectives, Scope, and Methodology                                         2

   Prior Audit Coverage                                                       3


Part II 


Audit Results                                                                 4


   Accident Prevention Initiatives                                            4

      Management’s Comments                                                   5


    Effectiveness and Timeliness of Prevention Initiatives                    5


   Accident Reporting Systems                                                 7

      Management’s Comments                                                   8


   Reporting Processes                                                        8

      Opportunity for Improvement                                             9

   Recommendation                                                            10
   Management’s Comments                                                     10 

   Evaluation of Management’s Comments                                       11 


Appendix A. Abbreviations                                                    12 


Appendix B. Scope and Methodology                                            13 


Appendix C. Statistical Sampling and Projections for Review of Accident      15 

            Reporting Processes in Mississippi Performance Cluster 


Appendix D. Statistical Sampling and Projections for Review of Accident      18 

            Reporting Processes in Suncoast Performance Cluster 


Appendix E. Management’s Comments                                            21 

Efforts to Prevent Accidents, Injuries,                                                 HM-AR-04-006
 and Illnesses in the Mississippi and Suncoast
 Performance Clusters (Southeast Area)

                                         EXECUTIVE SUMMARY
 Introduction 	                 This report presents the results of our self-initiated audit to
                                determine whether the Mississippi and Suncoast
                                Performance Clusters, located in the Southeast Area, were
                                reducing the number of accidents, injuries, and illnesses
                                through prevention initiatives.

 Results in Brief               The Mississippi and Suncoast Performance Clusters had
                                implemented prevention initiatives that could become best
                                practices in reducing accidents, injuries, and illnesses.
                                However, we could not determine whether the prevention
                                initiatives reduced the number of accidents, injuries, and
                                illnesses, or whether the initiatives were implemented in a
                                timely manner. This occurred because the measurement
                                tools in place did not allow safety personnel to track and
                                monitor the effectiveness of specific prevention initiatives.

                                Although both performance clusters were accumulating and
                                analyzing accident, injury, and illness data for prevention
                                initiatives in the Human Resource Information System and
                                the Risk Management Reporting System, both systems
                                were inconsistent and did not provide an efficient method of
                                analyzing data for prevention initiatives. Management told
                                us they plan to replace both systems.

                                Postal Service Headquarters officials told us they were
                                addressing these issues at the headquarters level. We will
                                issue a summary report on the audit results for the six areas
                                visited. In that report, we may make recommendations to
                                the Senior Vice President, Human Resources, regarding the
                                measurement tools and data systems.

                                Finally, in all six of the facilities we visited in the Mississippi
                                and Suncoast Performance Clusters, reporting processes
                                used within the various functional areas facilitated the
                                accurate reporting of accidents, injuries, and illnesses.
                                However, we noted an opportunity for improvement in
                                several Mississippi facilities.

 Summary of 	                   We recommended Postal Service management provide the
 Recommendation 	               necessary training and instructions to managers and
                                supervisors to ensure the completion and review of accident
                                forms.



                                                 i
Efforts to Prevent Accidents, Injuries,                                          HM-AR-04-006
 and Illnesses in the Mississippi and Suncoast
 Performance Clusters (Southeast Area)

 Summary of                     Management agreed with the recommendation and has
 Management’s                   initiatives completed or planned addressing the issues in
 Comments                       this report. Management agreed to ensure the completion
                                and review of accident report forms by providing training
                                and instruction to managers and supervisors. Management
                                stated this training and instruction has already commenced.
                                Management’s comments, in their entirety, are included in
                                Appendix E of this report.

 Overall Evaluation of          Management’s actions taken or planned are responsive to
 Management’s                   the recommendation and should resolve the issues
 Comments                       identified in this report.




                                                 ii
Efforts to Prevent Accidents, Injuries,                                                                  HM-AR-04-006
 and Illnesses in the Mississippi and Suncoast
 Performance Clusters (Southeast Area)

                                              INTRODUCTION
    Background                      With responsibility for more than 38,000 facilities, major
                                    transportation networks, and universal delivery, the Postal
                                    Service faces significant challenges in the areas of health
                                    and safety. These include making the health and safety of
                                    Postal Service employees a priority, managing the
                                    associated costs and lost productivity in operations, and
                                    responding when accidents and injuries have an
                                    unfavorable impact on the workplace. In addition, the
                                    Postal Service must address citations and monetary
                                    penalties for noncompliance with Occupational Safety and
                                    Health Administration (OSHA) standards.

                                    In its April 2002 Transformation Plan, the Postal Service
                                    stated that to meet its challenges and prepare for
                                    transformation, it would implement a number of strategies to
                                    “push business effectiveness and operational efficiency.”
                                    One of the strategies outlined was to reduce its workers’
                                    compensation costs. According to the Office of Workers’
                                    Compensation Programs’ (OWCP) chargeback1 reports, the
                                    Postal Service workers’ compensation costs have increased
                                    from $538 million to $822 million between chargeback years
                                    1997 to 2003.2

                                    The following table is a comparison of Postal Service-wide
                                    accidents3 and OSHA injuries and illnesses4 for fiscal years
                                    (FYs) 2002 and 2003, which shows decreases in
                                    four categories. In addition, total expenses in FY 2003
                                    decreased significantly.




1
  OWCP’s chargeback system is the mechanism by which the Department of Labor annually bills the cost of
compensation for work-related injuries and deaths to employing agencies.
2
  The Office of Workers’ Compensation Programs’ chargeback year is July 1 through June 30.
3
  The Postal Service considers accidents as all reportable and nonreportable incidents, including unadjudicated
occupational illness cases that cover certain kinds of injuries, illnesses, or damages. OSHA defines an accident
as any unplanned event that results in personal injury or property damage.
4
  OSHA defines an injury or illness as an abnormal condition or disorder. Injuries include, but are not limited to,
cuts, fractures, sprains, or amputations. Illnesses include both acute and chronic illnesses such as, but are not
limited to, skin diseases, respiratory disorders, or poisoning.

                                                         1
Efforts to Prevent Accidents, Injuries,                                                               HM-AR-04-006
 and Illnesses in the Mississippi and Suncoast
 Performance Clusters (Southeast Area)


                                   Table 1. Comparison of Postal Service-wide Accidents and OSHA
                                            Injuries and Illnesses, FYs 2002 and 2003

                                          Category                FY 2002                FY 2003
                                    Motor Vehicle                           23,404                 23,100
                                    Accidents
                                    Non-Motor Vehicle                       99,195                 93,251
                                    Accidents
                                    OSHA Injuries                           51,630                 46,317
                                    OSHA Illnesses                           6,972                  5,550
                                    Total Accident, Injury,        $1,652,449,865        $1,620,024,027
                                    and Illness Expenses

                                   Source: Postal Service Web-Enabled Enterprise Information System (WebEIS).


                                   Postal Service Headquarters officials did not know
                                   specifically what was responsible for the reduction in
                                   accidents. They believed, however, it was the result of
                                   accident prevention initiatives.

                                   To determine why the number of accidents, injuries, and
                                   illnesses declined, we conducted a survey of the accident
                                   prevention initiatives in the Postal Service’s Western
                                   New York and Baltimore Performance Clusters, located in
                                   the Northeast and Capital Metro Areas, respectively. Our
                                   results showed that accident prevention initiatives in each
                                   performance cluster were different and yielded contrasting
                                   results. We conducted this audit to determine whether
                                   similar situations existed in the Mississippi and Suncoast
                                   Performance Clusters. We did not audit the performance
                                   clusters’ overall safety programs. Our focus was on
                                   accident prevention initiatives at the locations we visited.

    Objectives, Scope,             Our overall objective was to determine whether the
    and Methodology                Mississippi and Suncoast Performance Clusters were
                                   reducing the number of accidents, injuries, and illnesses
                                   through prevention initiatives. Our four subobjectives were
                                   to determine whether:

                                        •	 The number of accidents and injuries were declining
                                           as a result of corrections to unsafe working
                                           conditions and practices.5

                                        •	 Corrective actions and/or prevention initiatives were
                                           made in a timely manner.


5
  Corrections to unsafe working conditions and practices were considered both corrective actions and prevention
initiatives. The purpose of this subobjective was to determine the effectiveness of prevention initiatives.

                                                          2
Efforts to Prevent Accidents, Injuries,                                            HM-AR-04-006
 and Illnesses in the Mississippi and Suncoast
 Performance Clusters (Southeast Area)

                                     •	 Data were being accumulated and analyzed for
                                        prevention initiatives.

                                    •	 Processes facilitated accurate reporting.

                                We discuss our scope and methodology in Appendix B.

 Prior Audit Coverage 	 In the Mississippi and Suncoast Performance Clusters, we
                        did not identify any prior audits or reviews related to the
                        objectives of this audit.




                                                 3
Efforts to Prevent Accidents, Injuries,                                                HM-AR-04-006
 and Illnesses in the Mississippi and Suncoast
 Performance Clusters (Southeast Area)

                                          AUDIT RESULTS
                                The Mississippi and Suncoast Performance Clusters had
                                implemented accident prevention initiatives. We could not
                                determine; however, whether the prevention initiatives were
                                reducing the number of accidents, injuries, and illnesses, or
                                whether the initiatives were implemented in a timely
                                manner.

                                Although the performance clusters were accumulating and
                                analyzing accident, injury, and illness data in two different
                                automated systems, both systems’ data did not always
                                reconcile and the systems will be replaced. Further, the
                                reporting processes used within the various functional areas
                                facilitated accurate reporting of accidents, injuries, and
                                illnesses. However, we noted an opportunity for
                                improvement in several Mississippi’s facilities.

 Accident Prevention 	          The Mississippi and Suncoast Performance Clusters’
 Initiatives 	                  prevention initiatives had the potential to become best
                                practices in reducing accidents, injuries, and illnesses.
                                These initiatives could also help other performance clusters
                                to enhance their safety programs. For example, the
                                Mississippi Performance Cluster:

                                     •	   Implemented the Strobe Light Program to reduce
                                          motor vehicle accidents in rural areas by installing
                                          strobe lights on top of all rural carrier vehicles.

                                     •	   Held power-lift classes in facilities with the highest
                                          number of lifting accidents to provide training on
                                          proper lifting procedures.

                                     •	   Implemented the SAF-IT Program to reduce the
                                          number of accident repeaters by providing training
                                          to employees who had two or more accidents.

                                The Suncoast Performance Cluster implemented the
                                following prevention initiatives:

                                     •	   A Safety Captain Program to monitor the safety of
                                          employees throughout each facility. Rotational
                                          assignments were made every six months, giving
                                          more employees training opportunities and
                                          elevating their safety awareness.


                                                 4
Efforts to Prevent Accidents, Injuries,                                                           HM-AR-04-006
 and Illnesses in the Mississippi and Suncoast
 Performance Clusters (Southeast Area)

                                       •	   Facility Improvement boxes for employees to
                                            anonymously submit information directly to the plant
                                            manager. As a result, plant management regularly
                                            discussed safety concerns, made decisions
                                            concerning actions needed to address safety
                                            concerns, and proposed safety improvements were
                                            forwarded to department heads for action.

    Management’s                 Although management comments were not required
    Comments                     regarding accident prevention initiatives, the Suncoast
                                 District Manager stated they will continue their efforts in
                                 accident prevention through hazard assessments and
                                 site specific initiatives while maintaining their focus on
                                 headquarters mandated, target specific, action plans.

    Effectiveness and            For FY 2002 through accounting period 11 in FY 2003, we
    Timeliness of                could not determine whether the Mississippi and Suncoast
    Prevention Initiatives       Performance Clusters were reducing the number of
                                 accidents, injuries, and illnesses through prevention
                                 initiatives, or whether prevention initiatives were
                                 implemented in a timely manner. We could not make this
                                 determination because the measurement tools in place did
                                 not allow safety managers to:

                                      •     Track and monitor specific prevention initiatives.
                                      •     Document when initiatives were implemented.

                                 Some categories of accidents (slips, trips, falls, and lifts)
                                 had decreased in both performance clusters; however, the
                                 reasons for the decreases could not be determined. District
                                 safety personnel told us they did not think decreases in the
                                 number of accidents were related to specific prevention
                                 initiatives. In addition, they had not documented the
                                 implementation dates.

                                 Although both performance clusters had implemented
                                 several accident prevention initiatives, their numbers and
                                 frequency rates varied for OSHA injuries and illnesses and
                                 motor vehicle accidents. From FYs 2002 to 2003,
                                 Mississippi’s OSHA injury and illness and motor vehicle
                                 accident frequency rates,6 and motor vehicle accident
                                 numbers increased. However, OSHA injury and illness
                                 numbers stayed about the same for the same period.

6
 OSHA injury and illness and motor vehicle accident frequency rates are the number of accidents per
100 employees for a specific period of time. These rates provide measurements that make accident data
comparable between large and small facilities.

                                                     5
Efforts to Prevent Accidents, Injuries,                                                       HM-AR-04-006
 and Illnesses in the Mississippi and Suncoast
 Performance Clusters (Southeast Area)

                                 Suncoast’s OSHA injury and illness and motor vehicle
                                 numbers and frequency rates decreased. The following
                                 table illustrates these changes.

                                 Table 2. 	OSHA Injury and Illness and Motor Vehicle Accident Numbers
                                           and Frequency Rates in the Mississippi and Suncoast
                                           Performance Clusters for FYs 2002 and 2003

                                    Performance
                                      Cluster                Numbers          Average Frequency Rates
                                                        FY 2002    FY 2003      FY 2002      FY 2003
                                  Mississippi
                                   OSHA Injury           209            207           4.19       4.30
                                    and Illness
                                   Motor Vehicle         176            224           5.12       6.38
                                  Suncoast
                                   OSHA Injury           927            852           8.15       7.76
                                    and Illness
                                   Motor Vehicle         488            465          13.43      12.52
                                 Source: Postal Service WebEIS.

                                 Postal Service policy7 stated that safety personnel were
                                 responsible for developing and monitoring a comprehensive
                                 safety and health program and analyzing accident, injury,
                                 and illness data so they could advise management on
                                 corrective actions. Policy8 also required installations to
                                 develop methods to identify program needs for accident
                                 preventions. In addition, policy9 required supervisors to
                                 implement written programs and action plans, monitor
                                 employees’ safety performance, and prevent operational
                                 safety accidents. District safety personnel at the Mississippi
                                 and Suncoast Performance Clusters confirmed that facility
                                 managers were responsible for documenting that prevention
                                 initiatives had been implemented.

                                 Without implementation dates and adequate measurement
                                 tools, the Postal Service does not have reasonable
                                 assurance that prevention initiatives help the performance
                                 clusters reduce the number of accidents, injuries, and
                                 illnesses. To follow prudent business practices, Postal
                                 Service managers should evaluate whether prevention
                                 initiatives are accomplishing their goal and whether the
                                 resources expended are justified.




7
  Employee and Labor Relations Manual 17.2, Section 813.31, February 2003.
8
  Employee and Labor Relations Manual 17.2, Section 821.32, February 2003.
9
  Supervisor’s Safety Handbook, Handbook EL-801, Chapter 1, Section 1-1, May 2001.

                                                    6
Efforts to Prevent Accidents, Injuries,                                                    HM-AR-04-006
 and Illnesses in the Mississippi and Suncoast
 Performance Clusters (Southeast Area)


                                     Headquarters officials told us the safety tool kit that safety
                                     managers use to assess their safety programs is being
                                     modified to include trend line charts to track prevention
                                     initiatives. The officials said the tool kit would also be
                                     modified to include a field for managers to enter the date
                                     initiatives are implemented. Therefore, we will address the
                                     need for tracking and monitoring initiatives in a separate
                                     report.10

 Accident Reporting                  Both the Mississippi and Suncoast Performance Clusters
 Systems                             were accumulating and analyzing accident, injury, and
                                     illness data in the Human Resource Information System
                                     (HRIS) and the Risk Management Reporting System
                                     (RMRS). However, safety personnel at both performance
                                     clusters told us the systems’ data did not always reconcile.
                                     Consequently, safety personnel had to develop and rely on
                                     alternative software applications to fully analyze data for
                                     prevention initiatives. In addition, safety personnel told us
                                     they did not have the proper training needed to create
                                     queries and customize reports from RMRS.

                                     Safety personnel also told us accident, injury, and illness
                                     data were accumulated on a daily basis in HRIS. They said
                                     the HRIS information was then downloaded into RMRS
                                     once every accounting period. They said both systems
                                     were used because the HRIS generated standard reports
                                     that provided limited means for analysis, while RMRS
                                     reports could be customized. For example, HRIS
                                     distinguishes between recordable and nonrecordable
                                     accidents, whereas RMRS does not. In addition, HRIS can
                                     only identify accidents by the accident number, while RMRS
                                     identifies accident category, type, and accident number.

                                     Safety personnel also said the RMRS reports did not reflect
                                     all HRIS data because HRIS was on real time, but RMRS
                                     was not. Specifically, RMRS was accurate as of the date it
                                     received the data from HRIS (once every accounting
                                     period). The HRIS, however, was updated daily with
                                     information from accident report forms. Finally,
                                     headquarters personnel told us these systems are
                                     antiquated and will be replaced.

                                     Postal Service policy11 required the safety offices

10
     We will issue a summary report on the audit results for the six areas visited.
11
     Employee and Labor Relations Manual 17.2, Section 821.123, February 2003.

                                                          7
Efforts to Prevent Accidents, Injuries,                                                             HM-AR-04-006
 and Illnesses in the Mississippi and Suncoast
 Performance Clusters (Southeast Area)

                                  responsible for facilities where accidents occurred to enter
                                  accident report information into HRIS. Postal Service
                                  policy12 also stated that the analysis of accidents and
                                  injuries was vital to effective accident prevention programs,
                                  and required management to use reports and statistical
                                  analyses to identify and eliminate the principal causes of
                                  accidents and hazardous conditions. Postal Service
                                  policy13 further required each business area that managed
                                  source data to identify an individual or organization
                                  responsible for developing standards and usage rules to
                                  ensure data integrity. The policy also stated that the
                                  standards and rules must ensure that data was accurate,
                                  available, usable, and consistent with the data location and
                                  other business considerations.

                                  According to the headquarters Program Manager,
                                  Information Technology, Human Resource Portfolio, the
                                  Postal Service has developed the Injury Compensation
                                  Performance Analysis System and a component of it will
                                  replace HRIS and RMRS. The manager also stated that the
                                  system is scheduled for implementation late in calendar
                                  year 2004. We will address this issue in a separate report.

 Management’s                     Although management comments were not required
 Comments                         regarding the accident reporting systems, the Manager,
                                  Suncoast District, stated that throughout the year, the safety
                                  staff prepared analyses based on current accident data that
                                  outlined trends. He also said that plans, programs, and
                                  procedures were implemented depending on how accidents
                                  and injuries were trending. The manager also stated the
                                  performance cluster will continue to establish action plans
                                  as needed, monitor for trends and results, and implement
                                  necessary activities.

 Reporting Processes              In all six of the facilities we visited in the Mississippi and
                                  Suncoast Performance Clusters, the reporting processes
                                  used within the various functional areas facilitated accurate
                                  reporting of accidents, injuries, and illnesses. In addition,
                                  the Suncoast Performance Cluster accident report forms14
                                  were completed in accordance with policy. However, we
                                  noted an opportunity for improvement in several Mississippi
                                  facilities.

12
   Employee and Labor Relations Manual 17.2, Section 821.31, February 2003.
13
   Management Instruction Administrative Support, 860-2003-2, March 6, 2003.
14
   The Postal Service Form 1769, Accident Report, was used to report accidents. The instructions on the form
required it to be completed for all accidents regardless of the extent of injury or amount of damage. This
included all first aid injury cases both reportable and non-reportable.

                                                      8
Efforts to Prevent Accidents, Injuries, 	                                                             HM-AR-04-006
 and Illnesses in the Mississippi and Suncoast
 Performance Clusters (Southeast Area)



                                   We used a statistical sample to project the accuracy of the
                                   Mississippi and Suncoast data in HRIS, for FY 2002 and the
                                   first eight accounting periods of FY 2003. We projected that
                                   almost all of the information on the accident reports was
                                   contained in the system (see Appendices C and D). We
                                   also projected that almost all of the Suncoast Performance
                                   Cluster accident report forms, for the same period, were
                                   complete (see Appendix D).

                                   Postal Service policy15 required supervisors to fully
                                   complete the accident report by including Preventive Action
                                   codes16 and descriptions of accident prevention efforts. The
                                   policy also required managers to review each accident
                                   report for accuracy and conduct a follow-up assessment to
                                   ensure that action was taken to prevent similar occurrences.
                                   In addition, supervisors and managers were required to sign
                                   the report as proof they had reviewed it. In addition, policy17
                                   required that the safety officer enter the accident report
                                   information into HRIS.

                                   We believe the accident reporting process was accurate
                                   because supervisors and managers had received the safety
                                   training required by the performance clusters and had
                                   communicated the accident reporting process to employees
                                   through safety talks and posters.

 Opportunity for 	                 An opportunity for improvement existed in several
 Improvement 	                     Mississippi facilities that reported their accidents to the
                                   Jackson Safety Office. Specifically, some supervisors did
                                   not report the Preventive Action codes and descriptions on
                                   the accident report forms, and some managers did not
                                   ensure that the forms were accurate and complete. For
                                   example, some accidents involving lifting, dropping
                                   equipment, and motor vehicles did not have Preventive
                                   Action codes and descriptions on the forms. This was
                                   required by policy and supported whether accidents had
                                   been investigated and the appropriate prevention initiatives
                                   had been identified. Employee safety may have been
                                   compromised if appropriate corrective actions and
                                   prevention initiatives were not implemented.

                                   We used a statistical sample to project the accuracy of the

15
   Employee and Labor Relations Manual 17.2, Section 821.13, February 2003. 

16
   Preventive Action codes described the action taken to eliminate or reduce the accident cause(s) and prevent 

similar accidents. 

17
   Employee and Labor Relations Manual 17.2, 821.12, February 2003. 


                                                       9
Efforts to Prevent Accidents, Injuries, 	                                                             HM-AR-04-006
 and Illnesses in the Mississippi and Suncoast
 Performance Clusters (Southeast Area)

                                   accident report forms processed from FY 2002 through the
                                   first eight accounting periods of FY 2003. We projected that
                                   2518 (11.7 percent) of the 218 forms did not contain accident
                                   prevention descriptions, and 69 (31.2 percent) of the
                                   218 forms did not contain accident Preventive Action codes
                                   (see Appendix C).

                                   According to the Mississippi District safety manager,
                                   supervisors did not always complete the accident report
                                   forms for a number of reasons. For example, she said
                                   some supervisors could not determine which Preventive
                                   Action codes or actions were applicable. She also stated
                                   that when codes were not displayed on the forms, she
                                   determined the appropriate codes and input them into the
                                   system. In addition, the safety manager told us that
                                   managers might not have reviewed the forms for accuracy
                                   because they believed supervisors had completed the
                                   forms.

 Recommendation	                   We recommend the Manager, Mississippi District,
                                   instruct the district safety manager to:

                                       1. Provide the necessary training and or instructions to
                                          managers and supervisors to ensure the completion
                                          and review of accident forms.

 Management’s                      Management agreed to the recommendation and has
 Comments                          initiatives completed or planned addressing the issues in
                                   this report. Management agreed to ensure the completion
                                   and review of accident report forms by providing training
                                   and instruction to managers and supervisors. Management
                                   stated this training and instruction has already commenced
                                   with the first two classes conducted by the district safety
                                   manager on March 9 and March 10, 2004. Management
                                   stated additional classes are scheduled for April 21 and
                                   April 22, 2004.

                                   Management also stated the performance cluster is
                                   committed to ensuring the health, safety, and welfare of
                                   every employee, and is proud that its performance, as
                                   measured by OSHA injury and illness frequency rates and
                                   other indicators, is one of the best in the Postal Service.
                                   Management said this sustained performance can only be
                                   attributed to the emphasis placed on the observation of safe

18
  The projected 25 accident reports were a result of rounding off the product of 11.667 percent times the
universe of 218 (0.11667*218 = 25.43).

                                                       10
Efforts to Prevent Accidents, Injuries,                                                HM-AR-04-006
 and Illnesses in the Mississippi and Suncoast
 Performance Clusters (Southeast Area)

                                work practices, elimination of hazardous conditions,
                                correction of unsafe practices, and other accident
                                prevention initiatives by all levels of the district leadership
                                staff, as well as the individual district employees.
                                Management stated it will continue its efforts in accident
                                prevention through hazard assessments and site-specific
                                initiatives while maintaining their focus on headquarters
                                mandated, target specific, action plans.

 Evaluation of                  Management’s actions taken or planned are responsive to
 Management’s                   our recommendation and should resolve the issues
 Comments                       identified in this finding.




                                                 11
Efforts to Prevent Accidents, Injuries,                         HM-AR-04-006
 and Illnesses in the Mississippi and Suncoast
 Performance Clusters (Southeast Area)

                           APPENDIX A. ABBREVIATIONS
e-FOIA          Electronic Freedom of Information Act
FOIA            Freedom of Information Act
FY              Fiscal Year
HRIS            Human Resource Information System
OSHA            Occupational Safety and Health Administration
OWCP            Office of Workers’ Compensation Programs
RMRS            Risk Management Reporting System
WebEIS          Web-Enabled Executive Information System




                                                 12
Efforts to Prevent Accidents, Injuries,                                                                HM-AR-04-006
 and Illnesses in the Mississippi and Suncoast
 Performance Clusters (Southeast Area)

                   APPENDIX B. SCOPE AND METHODOLOGY
Our performance cluster selections were based on the lowest and highest combined OSHA injury and
illness and accident frequency rates from FY 200219 through accounting period20 7 in FY 2003.21 The
Mississippi average total OSHA injury and illness, and accident frequency rates were 4.33 percent
and 11.86 percent, respectively. The Suncoast average total OSHA injury and illness and accident
frequency rates were 8.3 percent and 18.73 percent, respectively. The average total accident
frequency rate of 11.86 percent in the Mississippi performance cluster meant that out of every
100 employees, an average of 11.8 had an accident for that period.

We selected three facilities at each performance cluster based on size and type (for example, airport
mail center, processing and distribution center, and main post office). The Mississippi facilities we
visited were the Jackson Main Post Office, the Jackson Processing and Distribution Center, and the
LeFleur Post Office. The Suncoast facilities we visited were the Lakeland Main Post Office and the
Lakeland and Tampa Processing and Distribution Centers.

To accomplish our objectives, we reviewed applicable federal laws and Postal Service and OSHA
policies and procedures related to accident and injury prevention.

To verify whether the number of accidents and injuries were declining as a result of corrections to
unsafe working conditions and practices, we obtained data by accident category and code (slips, trips
and falls, lifting, dog bites, repetitive motion, striking against, struck by objects, and motor vehicles)
for each performance cluster we visited. In addition, we obtained accident numbers and accident
frequency rate data from the Postal Service WebEIS for FYs 2002 and 2003. We also obtained from
RMRS the accident frequency rates and OSHA injury and illness for FY 2002, and the first
eight accounting periods in FY 2003.22 We reviewed both WebEIS and RMRS data to determine
whether downward trends indicated a reduction in accidents, injuries, and illnesses.

To determine whether corrective actions and prevention initiatives were made in a timely manner to
reduce the number of accidents, injuries, and illnesses, we reviewed Postal Service policy to learn
whether a national or other standard policy existed that addressed how timely unsafe working
conditions and practices should be corrected. We reviewed documentation for corrective actions and
prevention initiatives implemented from FY 2002 through accounting period 11 in FY 2003.23

To determine whether accident, injury, and illness data were accumulated and analyzed for
prevention initiatives, we analyzed accidents, injuries, training documents, and workplace inspection
data for sources and locations of accidents and jobs with high occurrences of accidents. We also
analyzed accident and injury trends to determine whether a pattern of accidents with common causes
could be identified in order to prevent future occurrences. We reviewed action plans and Program
Evaluation Guide data that were accumulated and analyzed for prevention initiatives during FYs 2002
and 2003.

To determine whether processes used within the various functional areas facilitated accurate
reporting of accidents, injuries, and illnesses, we interviewed human resources, safety and health
program personnel, and management at the area, performance cluster, and facility levels. We
obtained information related to accident prevention, such as resources, training, accident and hazard
reporting, safety talks, and internal controls. In addition, we selected two statistical samples of
19
   The FY 2002 period for the Postal Service began September 8, 2001, and ended September 6, 2002.
20
   An accounting period is defined as a four-week period that forms one-thirteenth of the Postal Service fiscal
year.
21
   The first seven accounting periods for FY 2003 began September 7, 2002, and ended March 21, 2003. The
FY 2003 period for the Postal Service began September 7, 2002, and ended September 5, 2003. However, the
Postal Service transitioned its financial reporting system from accounting periods to monthly reporting periods on
October 1, 2003. The transition period began September 6, 2003, and ended September 30, 2003.
22
   The first eight accounting periods for FY 2003 began September 7, 2002, and ended April 18, 2003.
23
   The first 11 accounting periods for FY 2003, began September 7, 2002, and ended July 11, 2003.

                                                        13
Efforts to Prevent Accidents, Injuries,                                                      HM-AR-04-006
 and Illnesses in the Mississippi and Suncoast
 Performance Clusters (Southeast Area)

accidents, injuries, and illnesses entered into HRIS for FY 2002 and the first eight accounting periods
in FY 2003. We reviewed a sample of accident report forms for accuracy and completeness; and
reviewed a sample of accidents from HRIS to determine whether the information on the accident
reports was entered accurately. (See Appendices C and D for a discussion of the sampling and
projection methodologies used.)

This audit was conducted from May 2003 through April 2004 in accordance with generally accepted
government auditing standards and included such tests of internal controls as were considered
necessary under the circumstances. We discussed our conclusions and observations with
appropriate management officials and included their comments, where appropriate. We believe the
computer-generated data was sufficiently reliable to support the opinions, conclusions, and
recommendation in this report.




                                                  14
Efforts to Prevent Accidents, Injuries,                                                                HM-AR-04-006
 and Illnesses in the Mississippi and Suncoast
 Performance Clusters (Southeast Area)

                                              APPENDIX C

     STATISTICAL SAMPLING AND PROJECTIONS FOR REVIEW OF 

         ACCIDENT REPORTING PROCESSES IN MISSISSIPPI 

                    PERFORMANCE CLUSTER

Purpose of the Sampling

One of the objectives of this audit was to assess the accuracy and completeness of the accident data
in HRIS. In support of this objective, the audit team employed a simple random sample of accidents
listed in the database. The sample design allowed statistical projection of the number of
discrepancies between the database and the accident report forms on file. Existence of the
appropriate supporting forms was also tested using the sample.

Definition of the Audit Universe

The total population of accident report forms for the Mississippi Performance Cluster was divided
among three locations: Jackson, Tupelo, and Gulfport, Mississippi. Only the forms located in
Jackson were tested because the facilities that submitted forms to the Jackson Safety Office had the
larger complement of employees. Therefore, all projections are limited to the Jackson location
(hereafter referred to as the Jackson group). The Jackson group universe consisted of
218 individuals who, according to the HRIS database, were involved in a total of 261 accidents for all
of FY 2002 through accounting period 8 in FY 2003. The universe was obtained on-site by
requesting printed HRIS data from the safety manager responsible for the accident and injury
prevention program. To review accident report forms for as many different individuals as possible in
the available time, we further defined the audit universe as the first-accident instance for each of the
218 people represented by the 261 accidents (some individuals had more than one accident). The
final audit universe is the 218 accidents represented by the first accident occurrence within the audit
scope for each of the 218 individuals. Results are projected to these 218 accidents.

Based on information provided by the safety manager, the Jackson group consisted of approximately
15 installations.

Sample Design and Modifications

Based on experience at a prior site,24 we expected a very low error rate. Therefore, we calculated the
sample size on a one-sided confidence interval and a binomial distribution. Including the finite
population correction for the original universe of 261 accidents, our calculated sample size was
approximately 60 records for an expected error rate of 0.0 percent, a desired risk of over reliance of
4 percent, and a tolerable error of 5 percent. We also noted that the same sample size was adequate
for an expected error rate of 0.5 percent, a risk of over reliance of 10 percent, and a tolerable error
rate of 5 percent. We did not change the sample size when the audit universe was later revised to
218 accidents.

To select accidents for inclusion in the sample, we used the “randbetween” function in Microsoft
Excel25 to assign random numbers to the individuals on the universe listing.



24
   The Suncoast Performance Cluster was chosen in the Southeast Area because it had the highest combined
OSHA injury and illness and accident frequency rates.
25
   Microsoft Excel is a spreadsheet program from the Microsoft Office suite of productivity tools for Windows and
Macintosh.



                                                      15
                                            Restricted Information
Efforts to Prevent Accidents, Injuries,                                                       HM-AR-04-006
 and Illnesses in the Mississippi and Suncoast
 Performance Clusters (Southeast Area)

To test the completeness and accuracy of the database, we tested five attributes:

        •   Was the accident shown on the accident report form listed in the database?
        •   Did the accident control number in the database agree with that on the form?
        •   Did the accounting period date in the database agree with the accident date on the form?
        •   Did the listing of the involved person(s) in the database agree with that on the form?
        •   Did the accident description in the database agree with that on the form?

For the completeness of the accident report forms, we tested two additional attributes:

        •   Was the Preventive Action code on the form?
        •   Was the preventive action on the form?

For completeness of the database, the team planned to select files from the filing storage using a
systemic sampling methodology. However, the records were filed by employee, with accidents over
multiple years included in each individual’s file. Therefore, the files included numerous instances of
individuals with no accidents within the audit scope. As a result, the systematic sample of 75 files did
not produce enough instances of accidents within the audit scope to provide projectable data, and
review of a greater number of files was not feasible.

Statistical Projections of the Sample Data

For projection of the number of errors for each attribute, we observed that most of the sampled items
contained very low error rates, as anticipated. Because of the extremely low occurrence rates, we
were not able to use the normal approximation to the binomial to calculate occurrence limits for those
error categories. Instead, we analyzed the upper occurrence limits for each sample using as a basis
the cumulative binomial methodology, as used in past General Accounting Office Financial Audit
Manual work, to generate the table “Statistical Sampling Results Evaluation Table for Compliance
Tests.” We used a 5 percent risk of over reliance (beta risk). The tabulated values for the upper
occurrence limits were adjusted by appropriate finite population correction factors because the
universe sizes were small.

For two error categories, there were sufficient numbers of errors to make the use of the binomial
methodology inappropriate. For those cases, the normal approximation applied and the sample data
were analyzed using the formulas for estimation of a population proportion for a simple random
sample, as described in Elementary Survey Sampling, Scheaffer, Mendenhall, and Ott, 1990.

Results

All projections were made to the audit universe of 218 accidents in the Jackson group, as described
in the definition of the audit universe.

1. Was the accident shown on the accident report form listed in the database?
For this attribute, we make no projection. Reviewing 75 personnel files, we found a total of
132 accidents, but only 17 of the accidents were within the audit scope. All of the 17 accidents were
recorded in the HRIS database, but 1 of the 17 forms contained an accident date that differed from
that shown in the HRIS database.




                                                   16
                                         Restricted Information
Efforts to Prevent Accidents, Injuries,                                                       HM-AR-04-006
 and Illnesses in the Mississippi and Suncoast
 Performance Clusters (Southeast Area)

2. Did the accident control number in the database agree with that on the form?
Based on projection of the sample results, we can state with 95 percent reliance that no more than 

10 accident control numbers (4.6 percent of the universe of 218 accident control numbers) disagreed 

with the number on the form. The point estimate is that all 218 (100 percent) of the accident control 

numbers agreed. 


3. Did the accounting period date in the database agree with the accident date on the form?
Based on projection of the sample results, we can state with 95 percent reliance that no more than 

17 accounting period dates in the database (7.7 percent of the universe of 218 accident dates) 

disagreed with the date on the form. The point estimate is that 4 (2 percent) accounting period dates

disagreed (98 percent were correct or processed in a timely manner). 


4. Did the listing of the involved person(s) in the database agree with that on the form?
Based on projection of the sample results, we can state with 95 percent reliance that no more than 

ten database records of person(s) involved (4.6 percent of the universe of 218 records) disagreed 

with the form record of person(s) involved. The point estimate is that all 218 (100 percent) of the 

records agreed for this attribute. 


5. Did the accident description in the database agree with that on the form?
Based on projection of the sample results, we can state with 95 percent reliance that no more than 

22 accident descriptions as listed in the database (10.2 percent of the universe of 218 forms) 

disagreed with the accident descriptions as listed on the form. The point estimate is that seven 

(3.3 percent) of the records disagreed for this attribute.

6. Was the Preventive Action code on the form?
Based on projection of the sample results, we are 95 percent confident that 47 to 91 of the forms
(21.6 to 41.8 percent) lacked the Preventive Action code. The point estimate is that 69 forms 

(31 2 percent) lacked the Preventive Action code. 


7. Was the preventive action on the form?
Based on projection of the sample results, we are 95 percent confident that 10 to 41 of the forms
(4.7 to 18.6 percent) lacked the preventive action. The point estimate is that 25 forms (11.7 percent) 

lacked the preventive action. (The projected 25 accident reports and forms were a result of rounding 

off the product of 11.667 percent times the universe of 218 (0.11667*218 = 25.43).) 


Summary of Results

(Universe Size = 218; Sample Size = 60)

     Attribute       Number of         Projected           95 Percent Confidence
 (Number above        Errors in        Number of         Interval, Number of Errors
 corresponds to       Sample            Errors
 number below)
         1             0 (1**)        No Projection            No Projection
         2                0                 0                     0 to 10
         3                1                 4                     1 to 17
         4                0                 0                     0 to 10
         5                2                 7                     2 to 22
         6               19                69                    47 to 91
         7                7                25                    10 to 40

**A record existed, but one data element contained a discrepancy with the accident report form.




                                                    17
                                          Restricted Information
Efforts to Prevent Accidents, Injuries,                                                        HM-AR-04-006
 and Illnesses in the Mississippi and Suncoast
 Performance Clusters (Southeast Area)

                                          APPENDIX D

   STATISTICAL SAMPLING AND PROJECTIONS FOR REVIEW OF 

       ACCIDENT REPORTING PROCESSES IN SUNCOAST 

                  PERFORMANCE CLUSTER 

Purpose of the Sampling

One of the objectives of this audit was to assess the accuracy and completeness of the accident data
in the HRIS. In support of this objective, the audit team employed a two-stage random sample, with
stratification at the second stage. The sample design allows statistical projection of the number of
discrepancies between the database and the accident report forms on file. Existence of the
appropriate supporting forms is also tested using the sample.

Definition of the Audit Universe

The audit universe consisted of 3,239 accidents, according to the HRIS database, for all of FY 2002
through accounting period 8 in FY 2003. The universe was obtained on-site by requesting printed
HRIS data from the safety manager responsible for the accident and injury prevention program.

Based on information provided by the OIG Computer-Aided Assessment Techniques team, the
Suncoast Performance Cluster consisted of 147 installations.

Sample Design and Modifications

For projection of a two-sided interval with +/- 7 percent precision at the 95 percent confidence level,
our desired sample size was approximately 200 accident report forms. We began with the concept of
taking a simple random sample of 200 accidents listed in the printed data. However, the audit team
found that the storage of accident report forms in separate files by year and by installation would
make execution of that sample plan difficult. To accommodate the filing system, we used a two-stage
sample design, with installations selected at the first stage and individual accident report forms
selected at the second stage. Because the forms for each installation were separated by year, the
actual execution and analysis of the sample involved stratification by year at the second stage.
Forms outside the audit scope would be ignored. The simple average number of accidents per
installation per year [(3,239 accidents / (147 installations *2 years) = 11)] would have led us to select
about 20 installations to obtain our targeted 200 accident report forms. However, because many
installations had few or no accidents within the audit scope, we chose additional sites so we would
have a reasonable expectation of collecting enough accident report forms to be projectable. We
selected 40 installations.

To test of completeness and accuracy of the database, we tested five attributes:

        •   Was the accident shown on the accident report form listed in the database?
        •   Did the accident control number in the database agree with that on the form?
        •   Did the accounting period date in the database agree with the accident date on the form?
        •   Did the listing of the involved person(s) in the database agree with that on the form?
        •   Did the accident description in the database agree with that on the form?

For the completeness of the accident report forms, we tested two additional attributes:

        •   Was the Preventive Action code on the form?
        •   Was the preventive action on the form?



                                                   18
                                         Restricted Information
Efforts to Prevent Accidents, Injuries, 	                                                     HM-AR-04-006
 and Illnesses in the Mississippi and Suncoast
 Performance Clusters (Southeast Area)

To select installations for inclusion in the sample, we used the “randbetween” function in Microsoft
Excel to assign random numbers to the installations on the universe listing. The audit team selected
individual accident report forms on-site, using interval sampling defined as follows:

    For a single place, pull both folders. For each folder:
            o If fewer than 10 accident report forms, check all forms.
            o If 10 to 20, check every other form starting with the first form.
            o If 20-49, check every third form starting with the second form.
            o If 50-99, check every fifth form starting with the fourth form.
            o	 If more than 99, start with the seventh form.
                      For 100-199, divide by 10 and use that number as the interval.
                      For 200-299, divide by 20 and use that number as the interval.
                      For 300-399, divide by 30 and use that number as the interval.

Statistical Projections of the Sample Data

For projection of the number of errors for each attribute, we observed that the sampled items
contained very low error rates. Because of the extremely low occurrence rates, we were not able to
use the normal approximation to the binomial to calculate occurrence limits. Instead, we analyzed the
upper occurrence limits for each sample using as a basis the cumulative binomial methodology, as
used in past General Accounting Office Financial Audit Manual work to generate the table “Statistical
Sampling Results Evaluation Table for Compliance Tests.” We had to adapt the concept of upper
error limit analysis to the two-stage design, calculating and combining the within and between
variances for each installation in the sample, combining an implied within variance for each
installation in the sample (based on the cumulative binomial methodology) with a calculated between
installation variance. We used a 5 percent risk of over reliance (beta risk).

Results

All projections were made to the audit universe of 3,239 accidents, as described in the definition of
the audit universe.

1. Was the accident shown on the accident report form listed in the database?
Based on projection of the sample results, we can state with 95 percent reliance that no more
than 43 forms (1.34 percent) were missing from the HRIS database. The point estimate is that
six (0.19 percent) forms were missing.

2. Did the accident control number in the database agree with that on the form?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
36 accident numbers (1.1 percent) disagreed. The point estimate is that no accident numbers
disagreed (100 percent are correct).

3. Did the accounting period date in the database agree with the accident date on the form?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
36 accounting period dates in the database (1.1 percent) were inconsistent with the date shown on
the form. The point estimate is that no accounting period dates disagreed (100 percent were correct
or processed in a timely manner).




                                                   19
                                         Restricted Information
Efforts to Prevent Accidents, Injuries,                                                       HM-AR-04-006
 and Illnesses in the Mississippi and Suncoast
 Performance Clusters (Southeast Area)

4. Did the listing of the involved person(s) in the database agree with that on the form?
Based on projection of the sample results, we can state with 95 percent reliance that no more than 

50 database listings of person(s) involved (1.55 percent) disagreed with the information on the form. 

The point estimate is that 11 database listings of person(s) involved (0.35 percent) disagreed with the 

form. 


5. Did the accident description in the database agree with that on the form?
Based on projection of the sample results, we can state with 95 percent reliance that no more than 

40 accident descriptions in the database (1.23 percent) disagreed with the information on the form. 

The point estimate is that four accident descriptions in the database (0.11 percent) disagreed with the 

form. 


6. Was the Preventive Action code on the form?
Based on projection of the sample results, we can state with 95 percent reliance that no more than 

46 of the forms (1.41 percent) lacked the Preventive Action code. The point estimate is that 

eight forms (0.24 percent) lacked the Preventive Action code. 


7. Was the preventive action on the form?
Based on projection of the sample results, we can state with 95 percent reliance that no more than 

90 of the forms (2.77 percent) lacked the preventive action. The point estimate is that 42 forms 

(1 3 percent) lacked the preventive action.


Summary of Results

(Universe Size = 3,239; Sample Size = 210)
     Attribute
 (Number above      Number of
  corresponds to     Errors in   Projected Number         95-Percent Confidence
  number below)      Sample           of Errors         Interval, Number of Errors
         1               1                6                        1 to 43
         2               0                0                        0 to 36
         3               0                0                        0 to 36
         4               1               11                        1 to 50
         5               1                4                        1 to 40
         6               1                8                        1 to 46
         7               9               42                        9 to 90




                                                   20
                                         Restricted Information
Efforts to Prevent Accidents, Injuries,                          HM-AR-04-006
 and Illnesses in the Mississippi and Suncoast
 Performance Clusters (Southeast Area)



                 APPENDIX E. MANAGEMENT’S COMMENTS




                                                  21
                                        Restricted Information
Efforts to Prevent Accidents, Injuries,                          HM-AR-04-006
 and Illnesses in the Mississippi and Suncoast
 Performance Clusters (Southeast Area)




                                                  22
                                        Restricted Information
Efforts to Prevent Accidents, Injuries,                          HM-AR-04-006
 and Illnesses in the Mississippi and Suncoast
 Performance Clusters (Southeast Area)




                                                  23
                                        Restricted Information
